BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf hereby certify that 1 copy of the
foregoing Brief in Opposition in No. 19-1218, Marcus
Lee Robinson v. Colorado, was sent via Three Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Three Day Service and e-mail to the following
parties listed below, this 24th day of August, 2020:
Stuart Banner
UCLA School of Law Supreme Court Clinic
405 Hilgard Ave.
Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu
Counsel for Petitioner
Doyle Baker
Senior Deputy District Attorney
Counsel of Record
Daniel H. May
District Attorney
El Paso County, Colorado
District Attorney
105 East Vermijo Ave.
Colorado Springs, Colorado 80907
doylebaker@elpasoco.com
(719) 520-7384
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 24, 2020.

Donna J . Wol~
Becker Gallagher Le~ Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

,

'\.J

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
Fe';:, ,,ry 1·i, ?023

